Coc LE

Le ga l Briefs E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-546

DOUGLAS BROWNBACK, ET AL.,
Petitioners,
v.
JAMES KING,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION TO
PETITION FOR A WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 4620 words, excluding the parts
that are exempted by Supreme Court Rule 33. 1(d), as needed.

Subscribed and sworn to before me this 2 Ist day of January, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE ‘
General Notary . Vitter Z Chk
State of Nebraska . EC LG Qudbean- ,

Notary Public Affiant 38955

My Commission Expires Nov 24, 2020

 
